^7 O ffi !i
ft a;

;

No.

ORfCMMAL
Supreme Court, U.S.
FILED

AUG 2 1 2023
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

S> Inane Uesf^Cf

— PETITIONER

(Your Name)
vs.

Airman Jo
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

J a tied- S-tak?

of1 Afft-fils for {inJL £\l\s<scfo Clrcuii

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(^JiAsard (SVirfne Wjtsd ~ &(
(Your Name)

c/o mol A/W 3>Z AV*-~
(Address)

(City, State, Zip Code)

~7gk 211 - fcSzs
1%L Mg7- go SO
(Phone Number)

QUESTIONS PRESNTED

1.

In Earle v McVeigh, 91 US 503,23 L Ed 398, it says “ Every person is entitled to an
opportunity to be heard in a court of law upon every question involving his rights or
interests, before he is affected by any judicial decision on the question.” Why is the
Petitioner not being heard as of yet?

2.

The Petitioner would like to know the reason why taxes were being deducted from his
pay check, Secondly is the Petitioner getting the correct pay per hour as well as overtime,
being the employee started work as a longshoremen in or around November 1996?

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgement is the subject of this petition is as follows:
Armando Vasquez

RELATED CASES
No.’s 20-12237, 20-12125, 20-12149,20-12024,20-12234, & 20-12126

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

.2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

3,4
5,6

REASONS FOR GRANTING THE WRIT
CONCLUSION

.7
8

INDEX TO APPENDICES

APPENDIX A-Order Dismissing case without prejudice
APPENDIX B-check stubss
APPENDIX C-Dismissal for failure to prosecute
APPENDIX D- Order of Instructions to Pro Se litigants
APPENDIX E-Order of Instructions to Pro Se Litigants
APPENDIX F-Order Requiring filing of Application to proceed In Forma Pauperis
APPENDIX G-Notice of Certificate of Interested Persons and Corporate Disclosure Statement
APPENDIX H-W-4
APPENDIX I-Pages 9-10 from ILA Local 1416’s Collective Bargaining Agreement

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Norton vs. Shelby County, 118 U.S. 425........

5,6

Cynthia J. Mills, IRS Disclosure Officer 1995

5,6

Earle vs McVeigh...

Question Presented

Izner vs McCumber.

... 3

STATUTES AND RULES

OTHER
.7

The Universal Declaration of Human Rights 1948
Article 23,1-3
Article 3,5
Article 7

Internal Revenue Audit Manual (1976)

3

31 US Code 3124

3

Internal Revenue Code Title 26 ch.l Part 31 Section 3402 (P)-l (26 CFR31.3402)

,3

3

U.S. Constitution Article 1, Section 8, Clause 1
4

U.S. Constitution Article 6
Treaty of Peace and Friendship Between the United States and Morocco 1836

4,7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
'(/2-/ 1*2-0

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

5/W Izo

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date oii/Whiph the United States Court of Appeals decided my case
7/Z/ /2-0
was
M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Article 1, Section 8, Clause 1.
“ The Congress shall have power to lay and Collect Taxes, Duties, Imposts and Excises,
to pay the Debts and provide for the common Defense and General Welfare of the United
States; but all Duties, Imposts and Excises shall be uniform throughout the United States;
The Constitution for the United States of America.

2. Internal Revenue Code, Title 26, Chapterl, Part 31, Section 3402(p)-l (26CFR31.3402)
provides that the I.R.S. form W-4 is a voluntary withholding agreement between an
employer and an employee. There is no law requiring a worker or employee to complete
the I.R.S. Form W-4.

3. Izner vs. McCumber
“income is” SC of the U.S., the gain from capital derived from labor contract the services
of laborers. It’s the money that the Corporations make not the Natural Person.

4. 31 U.S. Code 3124 Exemption from taxation (a) Stocks and Obligations of the United
States Government are exempt from taxation by a State or Political subdivision of a State.
The exemption applies to each form of taxation that would require the obligation, the
interest on the obligation, or both, to be considered in computing tax.
5. “ Our tax system is based on individual self-assessment and voluntary compliance”Mortimer Caplin, Internal Revenue Audit Manual (1976).

3.

6. The Treaty of Peace and Friendship of 1836 A.D.
Article 20 and Article 23

7. The Constitution of the United States
Article 6

4.

STATEMENT OF THE CASE
On or around July 21,2020 the clerk of court David J. Smith issued the Petitioner an
entry of Dismissal for failure to prosecute. Also on or around June 2, 2020, Angela E.
Noble, the clerk of court for the United States District Southern District of Florida, Issued
the Petitioner an Ordering and Designation of Reporter’s Transcripts [Pursuant to FRAP
10 (b)]. That was an unconstitutional act. “ An unconstitutional act is not law; it confers
no rights; it imposes no duties; affords no protection; it creates no office; it is in legal
contemplation, as inoperative as though it had never been passed.” Norton vs Shelby
County, 118 U.S. 425. On or around May 26,2020, Marcia G. Cooke denied the
Petitioner’s Affidavit of Financial Statement to proceed in Forma Pauperis, As far as the
original complaint goes, Around February or March of2020, the Petitioner spoke with
Armando Vasquez regarding his wages and income tax being taken out of his wages. The
Petitioner wanted to know why all of a sudden around September or October 2019; the
Petitioner noticed income taxes being taken out of his wages. On or around October 8,
2019, the Petitioner filled out a W-4 per threatening request from C.K, Oneal of the
Internal Revenue Service. The Petitioner wrote N/A across the W-4. The wages the
Petitioner inquired about was the overtime situation. The overtime pay rate did match
with the information from the Collective Bargaining Agreement page 9 and 10. When the
Petitioner asked Armando Vasquez about the situation the Petitioner does not remember
his reply, but the Petitioner does not recall being reimbursed for that overtime pay from
May 2019, August 2019 and February 2020, in which the Petitioner believes it is
supposed to be a double time pay rate. The Petitioner does remember Armando Vasquez
5.

telling him that” the income tax being taken out of your wages is part of the contract
my/your local has with Eller I.T.O. or something of that manner.” I told him, “lam not
in the Union” and he replied “ well you shouldn’t be working.”
Cynthia J. Mills, IRS Disclosure Officer 1995 “ in regards to the fact that IRS is not
Positive law, but is for those who choose to subject themselves to it by voluntarily
entering into an employee agreement.” Respondent Armando Vasquez if found guilty is
being sued for $100,000.

6.

REASONS FOR GRANTING THE PETITION
THE TREATY OF PEACE AND FRIENDSHIP OF 1836 A.D. Between Morocco and the
United States
Article 20
“ If any of the Citizens of the United States, or any Persons under their Protection, shall Have any
disputes with each other, the Consul shall decide between the Parties, and whenever the Consul
shall require any Aid or Assistance from our Government to enforce his decisions, it shall he
immediately granted to him.”

Universal Declaration of Human Rights 1948
Article 3
Everyone has the Right to life, liberty, and security of persons.

Article 5
No one shall be subjected to torture or to cruel, inhumane or degrading treatment or punishment.

7.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

/

Date:

8

